<html>
<title> - IRAN BALLISTIC MISSILES AND INTERNATIONAL SANCTIONS ENFORCEMENT ACT; AND TAIWAN TRAVEL ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
               IRAN BALLISTIC MISSILES AND INTERNATIONAL
                     SANCTIONS ENFORCEMENT ACT; AND
                           TAIWAN TRAVEL ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                         H.R. 1698 and H.R. 535

                               __________

                            OCTOBER 12, 2017

                               __________

                           Serial No. 115-71

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       
                                 ______
                       
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-163 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                           
                       
                       
                       
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHE H. SMITH, New Jersey      ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1698, To expand sanctions against Iran with respect to the 
  ballistic missile program of Iran, and for other purposes......     2
  Amendment in the nature of a substitute to H.R. 1698 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    22
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1698 offered by:
          The Honorable Steve Chabot, a Representative in 
            Congress from the State of Ohio......................    42
          The Honorable Ron DeSantis, a Representative in 
            Congress from the State of Florida...................    45
          The Honorable Bradley S. Schneider, a Representative in 
            Congress from the State of Illinois..................    46
          The Honorable Brad Sherman, a Representative in 
            Congress from the State of California................    47
          The Honorable Brad Sherman.............................    49
          The Honorable Lee M. Zeldin, a Representative in 
            Congress from the State of New York..................    53
H.R. 535, To encourage visits between the United States and 
  Taiwan at all levels, and for other purpose....................    54

                                APPENDIX

Markup notice....................................................    76
Markup minutes...................................................    77
Markup summary...................................................    79


                      IRAN BALLISTIC MISSILES AND



                  INTERNATIONAL SANCTIONS ENFORCEMENT



                       ACT; AND TAIWAN TRAVEL ACT

                              ----------                              


                       THURSDAY, OCTOBER 12, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up two bipartisan 
measures. Without objection, all members may have 5 days to 
submit statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc and so without objection the following 
items previously provided to members and also in your packets 
will be considered en bloc and are considered as read: H.R. 
1698, the Iran Ballistic Missiles and Sanctions Enforcement 
Act, including the Royce Amendment 36 in the nature of a 
substitute to H.R. 1698, Chabot Amendment Number 3, 
<greek-l>the Santos deg.DeSantis Amendment Number 57, Schneider 
Amendment Number 2, Sherman Amendment Number 30, Sherman 
Amendment Number 31, Zeldin Amendment Number 32; and H.R. 535, 
the Taiwan Travel Act as introduced.
    [The information referred to follows:]H.R. 
1698 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  H.R. 1698 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Chabot amendment 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



DeSantis amendment deg.

Schneider amendment deg.

Sherman #30 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Sherman #31

Zeldin amendment 

<H.R. 535 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. I now recognize myself to speak on today's 
business. So today we consider H.R. 1698. This is the Iran 
Ballistic Missiles and International Sanctions Enforcement Act. 
It responds to the regime's continued pursuit of 
intercontinental ballistic missiles and dangerous conventional 
weapons.
    As we heard at our hearing yesterday, there is bipartisan 
agreement that we must continue to respond to the full range of 
threats that Iran poses to our national security and that of 
our allies and partners.
    That means going after Iran's support for terrorism as we 
did last month by marking up two strong bills targeting Iran's 
leading terrorist proxy and that is Hezbollah.
    It also means targeting Iran's development of 
intercontinental ballistic missiles and dangerous conventional 
weapons and that's what this bill does.
    It requires a comprehensive investigation to identify and 
designate the companies and the banks and the individuals both 
inside and outside of Iran which supply the regime's missile 
and conventional weapons programs and it sanctions those 
entities.
    And I should note that we had an excellent hearing on Iran 
yesterday and our subcommittees have had excellent hearings for 
which I thank them.
    I appreciate members' concerns regarding the future of the 
Iran deal, on both sides. This isn't an easy issue. But this 
bipartisan bill, which we have before us today with over 300 
co-sponsors, this bill is not and should not be a referendum on 
the nuclear deal.
    I welcome the amendments considered in the en bloc that 
seek to strengthen this bill's impact on Iran's missile 
program.
    I want to add a note of thanks to the members on both sides 
of the aisle who contributed to this bill with their thoughtful 
amendments--to Mr. Chabot, Mr. DeSantis, Mr. Schneider, Mr. 
Sherman, and Mr. Zeldin.
    As former Secretary of Defense Ash Carter warned, the I in 
ICBM stands for intercontinental, ``which means having the 
capability from flying from Iran to the United States.''
    There is no question that the U.S. must take strong action 
now to curb Iran's dangerous pursuit of ballistic missiles.
    So moving on to our other measure that we are taking up 
today, I want to thank Representative Steve Chabot for 
authoring H.R. 535. This is the Taiwan Travel Act.
    Currently, the State Department enforces self-imposed 
restrictions on official travel between the United States and 
Taiwan. This bill denounces that practice by encouraging more 
frequent official visits including at the highest levels that 
will serve to further strengthen the critical U.S.-Taiwan 
partnership.
    This bill builds off legislation we passed out of the 
committee last month, which addressed Taiwan's exclusion from 
the World Health Assembly.
    I now recognize the ranking member, Mr. Eliot Engel, for 
his remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this markup.
    This has been a busy week, Mr. Chairman, as we all wait to 
learn what the administration plans to do about the Iran deal.
    This morning we have two bipartisan measures before us and 
that is no surprise because this committee is accustomed to 
working in a bipartisan way.
    We think that foreign policy should be bipartisan and that 
partisanship should stop at the river's edge, and that is the 
way we have conducted ourselves during these past 5 years.
    But, apparently, the administration doesn't agree. We 
learned through reporting that last evening the President's 
national security advisor, General McMaster, and Secretary of 
State Tillerson briefed Republican members on the 
administration's plans.
    Policy toward Iran is of the highest national importance. 
We must stand together to confront these threats and, frankly, 
partisan briefings simply do not help. So let's get this right 
and stop the political games that the administration is 
playing.
    If reporting is accurate, the administration plans to 
decertify the deal and push for Congress to pass legislation to 
change parts of it.
    I am not quite sure how that would work. Congress has a 
role to play in foreign policy. But we cannot pass a law to 
unilaterally change an international agreement.
    If the administration wants to change the nuclear deal--and 
I would be the first to say there are areas which can be 
improved or strengthened--I want to remind everybody I voted 
against the deal 2 years ago--then the administration needs to 
work with our allies and negotiate.
    We can do this. There is time before areas of the agreement 
sunset. Let us put our heads together with our friends in 
London, Paris, Berlin, and the EU and see to it that all 
pathways to a bomb are cut off for Iran in perpetuity. But let 
us do it right. Don't blow up the agreement to save it. We will 
come out worse in the end.
    If the administration needs certain authorities, that's 
where we have a job to do. But this talk of decertifying the 
agreement and kicking it to Congress for some sort of magical 
fix just doesn't make sense.
    I wish I had more clarity on what the White House plans to 
do but the White House apparently feels the Democratic members 
don't need any kind of briefings.
    I am, frankly, irked that many of us are being kept in the 
dark. That said, I am a co-sponsor of the ballistic missile 
legislation and I plan to support it.
    I am ready to work with Chairman Royce to pass more 
sanctions on Iran. But I am more curious why the tough 
sanctions law the President signed in August hasn't been put to 
use yet.
    We hear a lot of talk from the White House, but so far the 
only action when it comes to Iran is this plan to decertify the 
deal.
    I agree with my friend, the chairman. Let us enforce the 
hell out of the sanctions we have.
    So I will support this bill but I have a lot of questions 
about what the administration plans to do in the hours and days 
ahead and, again, I am concerned about legislating on Iran when 
only a few members have the full picture of what's about to 
happen.
    Next, I am grateful to Representatives Chabot and Sherman 
for their strong leadership on Taiwan and, in particular, for 
introducing the Taiwan Travel Act.
    I am a strong supporter of Taiwan. I visited there many 
times including with the chairman, who has been a longstanding 
champion and highly regarded expert on Taiwan issues.
    Taiwan is a flourishing multi-party democracy of more than 
20 million people with a vibrant free-market economy. It's a 
leading trade partner of the United States alongside much 
bigger countries like Brazil and India.
    Over the past 60 years, the U.S.-Taiwan relationship has 
undergone dramatic changes and Taiwan's development into a 
robust and liberal democracy underscores the strong friendship 
our two countries share today.
    The cornerstone of our relationship is the Taiwan Relations 
Act passed by Congress in 1979. It has been instrumental in 
maintaining peace and security across the Taiwan Straits and in 
East Asia, and serves as the official basis for friendship and 
cooperation between the United States and Taiwan. Congress has 
played a major role in defining what our bilateral relationship 
looks like.
    Given the possibility that the new administration may want 
to revisit regulations and guidance toward Taiwan, the Taiwan 
Travel Act is timely.
    This measure puts Congress on record saying the United 
States Government should encourage more regular, substantive, 
and senior level engagement between American and Taiwanese 
officials and reaffirms that our policy should be to allow such 
visits to occur at all levels of government.
    This is the sort of engagement and support we would like to 
see for our close friends and partners in Taipei. That is why I 
support this measure and encourage all members to do the same.
    Again, Mr. Chairman, thank you for convening this markup 
and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Do any other members seek recognition?
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    As we heard yesterday in testimony from General Wald, the 
Iran deal ``places Iran on a trajectory to become as an 
intractable challenge as North Korea is today and, possibly, 
worse.''
    The general noted that while Pyongyang's relentless pursuit 
of nuclear weapons has only deepened its isolation and driven 
it toward bankruptcy, the JCPOA is doing the opposite for Iran.
    It was clear, Mr. Chairman, from the beginning that this 
deal was deeply flawed. You said it. I said it. Many members of 
this committee on both sides of the aisle said it.
    It was clear as well that it was based on a fundamentally 
misguided premise that Iran's manifest desire for nuclear 
weapons could be considered separate from its development of a 
delivery capability for that weapon or from the rest of Iran's 
violent campaign for regional hegemony.
    It should be self-evident that a nuclear warhead without a 
delivery vehicle is not going very far very fast. Iran's 
ballistic missile program is inseparable from its desire to 
impose nuclear blackmail on the United States, Israel, and 
other regional friends and allies.
    Iran also exports its extremist revolution through the 
proliferation of conventional weapons to terrorist proxies. The 
Iranian nuclear deal, as we all know, gave Iran an infusion of 
an estimated $115 billion in unfrozen assets and, as John Kerry 
said in an interview that was carried by CNN, that we don't 
know where that money is going and it probably will end up in 
the terrorists' hands, not to mention other financial 
inducements like the $1.7 billion in small bills.
    As we heard yesterday, this money has helped Iran to extend 
its malign influence to an unprecedented extent across the 
region in Syria, in Iraq, in Lebanon, and in Yemen.
    H.R. 1698, the Iran Ballistic Missiles and International 
Sanctions Enforcement Act, enjoys broad bipartisan support and 
has a huge number of co-sponsors--some 320.
    The bill expands sanctions against organizations and 
individuals that facilitate Iran's ballistic missile program as 
well as its trade in conventional weapons.
    It is critical to our national security and that of our 
allies in the region, especially our good friend and ally, 
Israel.
    I yield back and I ask unanimous consent that the full 
statement be made a part of the record.
    Chairman Royce. Without objection.
    We now go to Mr. Sherman.
    Mr. Sherman. Mr. Chairman, thank you for bringing these 
excellent bills up. For 20 years, I have had a commitment to 
the security of Taiwan and countering the threat of Iran.
    H.R. 535 I think should enjoy the support of everyone here 
and I have studied it as ranking member of the Asia 
Subcommittee.
    Taiwan has 23 million people. We have $85 billion of two-
way trade. Any country near that important to us we would have 
meetings at the highest levels of government.
    This bill expresses a sense of Congress that it should be 
U.S. policy to encourage government visits at all levels 
between the United States and Taiwan.
    Now, it is true that officials have traveled from Taiwan to 
the United States at various conferences. They participate in 
the meetings in the United States regarding the environment and 
global anti-terror campaigns.
    But when it comes to the senior most Taiwanese national 
officials, we don't allow them to come to Washington. Taiwan's 
defense Foreign Minister and President have come to the United 
States this year but not Washington, DC, and not to meet in 
formal meetings in U.S. Government buildings.
    There is only one beneficiary of this program and that is 
myself and the 30th Congressional District since it is a 
matter--since the place most visited by senior Taiwanese 
officials is the Sheraton Universal Hotel in my district. As 
wonderful as those meetings are, it would be much better if the 
meetings were at the State Department and here in the United 
States Congress.
    Encouraging greater level of high-level visits and dialogue 
as mentioned the bill would ease Taiwan's international 
isolation and reaffirm the U.S. political and security 
commitments to Taiwan.
    As to H.R. 1698, the Iran Ballistic Missiles Act, this is 
an important act to make it plain that Iran's violations of 
U.N. Security Council resolutions regarding not only ballistic 
missiles but also the transfer of weapons must be responded to, 
and that is why I am pleased to be one of the 320 co-sponsors 
of this important legislation.
    Thank you for including my two amendments, the first of 
which requires the President to submit periodic reports on the 
illicit activities of supposedly civilian aircraft controlled 
by Iran.
    Are they using them to take materiel to Assad, to the 
Houthis, and others? Are they using them to move chemical or 
biological weapons? Are they using them for terrorist acts like 
they did in Bulgaria a decade or two ago?
    This is important because we are called upon to allow the 
sale of U.S. planes--supposedly civilian planes--to Iran. We 
should know what their existing civilian planes are used for.
    Second, it calls for the President to report after each 
missile test the technical details of the test--the trajectory, 
duration, range.
    I want to point out that some or all of these reports can 
be classified and some portions, clearly, should be.
    The United States, clearly, provides the same information 
about North Korean missile tests that this bill calls on them 
to provide with regard to Iranian nuclear tests.
    Such information will provide better assessments for the 
capacity of these missiles and help Congress do its job.
    Finally, when it comes to sanctions on Iran, we need the 
toughest sanctions with the best explanation--tough sanctions 
so that Iran gets the message--the good explanation so that 
Europe and Asia support what we are doing.
    That is why I am pleased that this bill focuses on Iran's 
violation of U.N. Security Council resolutions dealing with 
missiles and weapons.
    The worst reason we could give is to say we are imposing 
sanctions to deliberately shred the nuclear deal. If we do 
that, Europe won't enforce the new sanctions and will not join 
us in them, and Europe will think it's fine for Iran to stop 
even pretending to live under its commitments under the deal.
    Equally tough sanctions imposed because of what Iran is 
doing in Syria, what they are doing in missiles, what they are 
doing to violate U.N. Security Council resolutions gives us a 
chance of international support and leaves in place the 
benefits that we do get, and we do get some benefits from the 
Iran nuclear deal.
    Finally, I would point out that in this room several of us, 
including myself, asked Secretary Kerry in 2015 were we allowed 
under the JCPOA to adopt sanctions because of Iran's support 
for terrorism, holding our hostages, and supporting Assad.
    And the answer from Secretary Kerry is we are free to adopt 
additional sanctions as long as they are not a phony excuse for 
just taking the whole pot of the past ones and putting them 
back.
    So let us impose the sanctions that Iran has earned from 
its evil activities and let's just make sure they pass the test 
of not being phony.
    And I yield back.
    Chairman Royce. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and again, I'd like 
to thank you and Congressman Eliot Engel for the leadership on 
this issue.
    We have seen this committee on numerous occasions focus on 
what could be one of the gravest threats to the wellbeing of 
the American people that we face today.
    In fact, I would probably put it at the most important. We 
have an unstable regime. We have a group of religious fanatics 
controlling the Iranian Government and our efforts to prevent 
the lunacy that comes out of that regime from getting into 
possession of nuclear weapons is vital to the security and 
wellbeing of the people of the United States.
    So I thank both of you for keeping us focused on this 
issue. Let me note that 20 years ago when I was here I remember 
a similar situation when we were facing the possibility that a 
lunatic in North Korea would get their hands on nuclear 
weapons.
    And we went out of our way. We were assured by the 
administration that sanctions and incentives like giving cash 
would do the trick, and it didn't.
    The fact is we have had sanctions on North Korea and they 
did not work. The fact is we gave North Korea $4 billion to $5 
billion, and not only did it not work, it probably facilitated 
their nuclear weapons program by giving them some other money 
that was then fungible to channel into the development--long-
term development of a nuclear weapon.
    We have unleashed $150 billion into the control of the 
mullah regime in Iran. These are people who believe that we 
represent Satan to them.
    The United States represents a Satanic force in the world 
that needs to be wiped out. That is what they believe. We have 
to face that reality.
    If we don't face that reality, we are going to face the 
same situation that we face in North Korea today. Yeah, wishful 
thinking. That was 20 years ago, and we facilitated North Korea 
to getting into this position.
    Again, sanctions alone will not work. But we should make 
sure that we move forward with all the things that we can do 
short of a military confrontation.
    Sanctions is certainly one of them, and the second part, 
however, I think we have to bite the bullet and realize that in 
a nuclear age, we sometimes will have to take actions against 
governments that we would not necessarily want to disturb. We 
let them sit there. We'd have to take actions, and it doesn't 
necessarily mean sending American troops into action and into 
military confrontation.
    Instead, which, during the Reagan years--I am very proud to 
have played a role in developing what they called the Reagan 
Doctrine, which was go out and try to find out who the enemies 
of your enemy are and then help those people to do the fighting 
for you.
    And in this case, Iran is filled with people who hate the 
mullah regime. They are oppressed by the mullah regime. 
Persians--young Persians marched, in fact, 8 years ago, seeking 
our help, and we rebuked them. And instead, we should be 
reaching out to these young Persians who hate the mullah regime 
and want to live at peace, want to build an economy and not 
nuclear weapons. Let us reach out them.
    Let us reach out to the Baluch, a people who are oppressed 
in Iran. Let us reach out to the Kurds. There are more Kurds in 
Iran than there are in Iraq, for example. There are Azaris that 
feel they are oppressed. They are part of the same Azaris from 
Azerbaijan.
    We have people that we can work with the vast majority of 
people in Iran who don't like the mullah regime. If our goal is 
to stop this mullah regime from obtaining nuclear weapons which 
would threaten and endanger the people of the United States.
    We need to do sanctions but we need to do more than that. 
But I join you today in doing this, this that we can do right 
now.
    So thank you very much.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and thanks to you and 
the ranking member for bringing these bills before us.
    I want to join in supporting the Taiwan Travel Act, which 
is an important statement of American backing for our friends 
in Taipei and for the values of democracy that Taiwan proudly 
exudes in East Asia.
    The U.S.-Taiwan relationship is an obvious and easy and 
important relationship to support. I would like to focus my 
time instead on the Iran Ballistic Missiles and International 
Sanctions Enhancement Act.
    Although we already passed into law the substantive 
provisions included in this bill when we passed CAATSA back in 
July, I welcome today's markup as yet another opportunity to 
discuss the options we reserve for going after Iran's malign 
activities and for doing it without wasting time outside of the 
JCPOA.
    It's been more than 2\1/2\ months since we sent the 
President additional authorities to impose tighter sanctions 
that would squeeze Iran's support for terrorists like Hezbollah 
that would hold the IRGC accountable for its support to the 
Assad regime and its efforts to sow discord in the region and 
to punish Iranian officials responsible for the well-documented 
human rights abuses against the Iranian people.
    Yet, we still have not seen the President or this 
administration act to enforce these new sanctions. Instead, we 
have been consumed by the certification debate.
    I opposed the JCPOA but I also have spent my congressional 
career pushing the sanctions architecture that brought Iran to 
the negotiating table.
    I know that it was not easy to bring our international 
partners on board and I recognize that in order to continue the 
pressure to pressure Iran, we will need the support of our 
allies and others on the global stage.
    I have already made my feelings clear about certification 
and the implications of unilaterally disengaging from the 
JCPOA.
    I will just add that whatever speech the President may give 
today or tomorrow, I hope that it includes a comprehensive 
strategy for combating Iran's anti-American and anti-Israel 
posture in the region, and I hope that the President commits to 
use the sanctions tools that we in Congress have given to him.
    Because however we feel about the nuclear deal, we can 
certainly all agree that Iran must be held accountable for its 
blatant and consistent violations of U.N. Security Council 
Resolution 2231, which forbids Iran from testing or developing 
ballistic missiles.
    The very fact that it is the IRGC that oversees the missile 
program, the same organization responsible for supporting 
Hamas, Hezbollah, and Assad should help illuminate why the 
international community rightly is so concerned.
    Iranian aggression and the threat posed by its 
revolutionary leadership has always been a priority in this 
committee and I would like to thank the committee's leadership 
for your continued vigilance and attention to this issue and 
for bringing this bill before us today.
    I appreciate it and I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    We now go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I thank you for 
holding this markup today--a very important one, I think.
    First, I would like to voice my support for H.R. 535, the 
Taiwan Travel Act, a bill that I introduced along with my 
friend from across the aisle, Brad Sherman from California. 
Introduced it earlier this year. I want to thank him for his 
leadership on this issue.
    As a founding member of the Congressional Taiwan Caucus, I 
have particular interest in U.S.-Taiwan relations, and I think, 
as many of us do, take our commitment to Taiwan very seriously.
    I would also like to quickly address the restrictions on 
visits by high-ranking Taiwanese officials, something that many 
of us find both insulting and counterproductive.
    I remember a number of years ago about 26 of us, after 
votes on, I believe, it was a Tuesday--Monday or Tuesday 
evening--flew all the way up to New York City to meet with 
President Chien, who was President of Taiwan at the time. Very 
inconvenient for us to have to fly all the way up there and 
come back here. These are self-imposed restrictions that the 
United States imposed.
    This policy is nonsense and should be changed. The fact 
that you can't have a President or a Vice President or Foreign 
Minister or the Defense Minister from Taiwan come here from to 
our capital, Washington, is just, I think, crazy.
    Earlier this year, I expressed these concerns again, after 
having said this to previous administrations, to Secretary of 
State Tillerson, and pointed out that this self-imposed 
restriction bars Taiwan officials from setting foot in this 
center--this city, the center of democracy and freedom.
    This policy goes against our own self-interest. It tells 
China that we are willing to yield to them on our foreign 
policy issues such as this one.
    It conveys weakness, I think, to Beijing. China continues 
to take aggressive actions that further its long-running 
campaign to isolate Taiwan and I believe that the United States 
has a legal and moral commitment, as we all know, to defend 
Taiwan sovereignty in the face of this aggression from the PRC.
    The United States should have a direct dialogue with our 
democratically-elected friend, the leadership in Taiwan, 
whichever party it happens to be, and it's time to change this 
outlandish policy and outdated policy.
    The Taiwan Travel Act will do this and I would urge my 
colleagues to support this measure, and I would also like to 
urge my colleagues to support an amendment that we will be 
offering on H.R. 1698.
    It requires the President to notify Congress when there is 
credible information that Iran may be receiving large 
quantities of advanced conventional weapons from foreign 
countries.
    Going further, this amendment would also require the 
President to determine if such a weapons transfer should 
trigger further sanctions.
    Nearly 10 years ago, Russia signed a contract to sell 
several S-300 surface-to-air missile systems to Iran. In 2010, 
Russia suspended the sale, only to renew the deal after the 
terms of the Iran deal was agreed to, and that wasn't a 
coincidence, I believe.
    The S-300 missile defense system strengthens Tehran's 
military capabilities and it complicates our U.S. strategy for 
eliminating potential Iranian nuclear weapons.
    Now Moscow has delivered multiple S-300 delivery systems to 
Iran. It's dangerous. Should military action ever be required 
we want to avoid that, obviously, if at all possible, just as 
we want to avoid military action with respect to North Korea, 
if at all possible.
    But to allow missile systems like these, which could 
jeopardize future American actions, again, if necessary is just 
wrong.
    Late last month, Iran even displayed this surface-to-air 
missile system to the public--a move that was, clearly, 
designed to elevate tensions to be more aggressive with the 
United States and with the West in general.
    We have to take action, I think, on this and I think this 
legislation is a step in the right direction. I would encourage 
folks to support that amendment and support the Taiwan 
Relations Act, and I will yield back. Thank you.
    Chairman Royce. Thank you.
    We go now to Mr. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chair.
    I would like to thank the chair and the ranking member for 
working together in a bipartisan way once again on these pieces 
of legislation.
    I think it is important. We are giving the Trump 
administration the tools that are necessary to use these 
sanctions as part of what I hope will become a comprehensive 
strategy that is currently lacking.
    I also must comment, because I think we are on the edge of 
something very dangerous if, indeed, the briefing that the 
Republican members have received about the President's failure 
to certify the Iran agreement, something he didn't share with 
us, is indeed true.
    This committee has worked hard to work together. We worked 
hard to try and see what we could do to influence China in the 
short run to intercede in North Korea and to try and work in 
that regard.
    Failing to certify is going to, frankly, cause great damage 
in trying to get China to move because we won't show the 
consistency and resolve necessary when we make an agreement to 
go forward.
    Secondly, I think for all of us who want to make sure that 
the agreement is aggressively enforced, this is going to weaken 
that effort because it's going to make the coalition of allies 
that we assembled to make it possible in the first place less 
cohesive.
    And without that cohesiveness, we won't be able to act as 
strongly and aggressively as we could otherwise to enforce this 
agreement.
    And my last point, Mr. Chairman, is this. If he goes ahead 
and fails to certify, as yesterday's testimony indicated to 
this committee, we will be playing with fire.
    In that 60-day period it is very likely, I believe, that 
there will be some actors that will move for a major incident 
in the Middle East to try and provoke this Congress into acting 
in a way that will blow up that agreement and blow up the 
coalition that we have going forward.
    This period is essential and I hope, should this happen, I 
hope the same feelings, a bipartisan agreement, loyalty to our 
country, putting that first above all else, I hope that stays 
in force, as we go forward for the entire Congress.
    We, as a committee, can demonstrate that should these 
things occur from outside malign actors, that we will stay 
together. We will not be moved and get through this very 
dangerous period.
    So I want to congratulate this committee on working 
together once again, and I yield back.
    Chairman Royce. Thank you, Mr. Keating.
    We now go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, for this important 
markup.
    It is encouraging to see your bipartisan leadership with 
Ranking Member Eliot Engel.
    I am grateful to be a supporter of H.R. 1698, the Iran 
Ballistic Missiles Sanctions Enforcement Act, as well as H.R. 
535, the Taiwan Travel Act.
    Sponsored by Chairman Ed Royce, I appreciate being a co-
sponsor of H.R. 1698, the Iran Ballistic Missiles and Sanctions 
Enforcement.
    This bipartisan bill works to expand sanctions on Iran with 
respect to their ballistic missile program and, ultimately, 
works to keep American families safe.
    I am also grateful to support, as a co-sponsor of H.R. 535, 
the Taiwan Travel Act, sponsored by our colleague, Congressman 
Steve Chabot.
    Working to strengthen the relationship between the United 
States and Taiwan by encouraging officials of all levels from 
both countries to visit and meet with each other, and also 
motivates Taiwanese to promote business in the United States.
    My home state of South Carolina has benefitted with the 
billion-dollar investment by Nan Ya Plastics--Formosa Plastics 
Group in Lake City, South Carolina, which has created hundreds 
of jobs for American families.
    I yield back the balance of my time.
    Chairman Royce. David Cicilline, Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
you, Mr. Chairman, and to the ranking member for holding this 
markup today.
    I strongly support the Taiwan Travel Act and our efforts to 
recognize the important relationship between the United States 
and Taiwan.
    We are here on another issue of tremendous importance-Iran. 
Despite the President's treatment of the U.S. commitment to the 
Iran nuclear deal with this on again-off again, will he 
certify-will he not certify as though it were a segment in a 
game show, this is not a trivial matter.
    We are talking about nuclear war, about a direct threat to 
our ally, Israel, to the safety of American men and women 
stationed in the Middle East, and, of course, our safety here 
at home.
    By threatening not to certify that Iran is in compliance 
with the JCPOA, without any evidence that they have violated 
the terms and, in fact, broad agreement that Iran is complying 
with the terms of this--of the JCPOA, including multiple 
sources that include the President's own senior officials, the 
President threatens to destroy the agreement that took decades 
to build.
    He threatens the credibility of the United States of 
America, he threatens our relationship with our allies, and he 
threatens our ability to mobilize support to combat Iran's many 
destabilizing activities throughout the region.
    And most importantly, he threatens to put Iran under direct 
path for a nuclear bomb. The Iran deal accomplished its 
objective preventing Iran from developing nuclear weapons.
    This is not to say that they are not engaged in 
destabilizing aggressive conduct. Are they funding terrorism? 
Yes. Are they supporting Hezbollah and Hamas? Yes. Are they 
continuing to take American citizens hostage? Yes. These are 
all serious issues of vital importance that we need to focus on 
outside the terms of the JCPOA. The nuclear deal was never 
meant to combat the multitude of Iranian factions of 
international law.
    It was meant to take the nuclear issue off the table so 
that we, as an international community, can focus our energies 
on tightening the cinch around Iran's illicit financial 
activities, against their terrorism, and against their 
egregious human rights abuses and other maligned activities 
both within Iran and elsewhere.
    As Jake Sullivan testified before this committee yesterday, 
the fabricated drama created by President Trump surrounding 
certification only draws attention away from the very issues we 
need to address most.
    So long as we are bickering with our allies and threatening 
to unilaterally pull out of the JCPOA, we give Iran cover for 
its bad behavior.
    If recent news reports are correct, President Trump seems 
to think that he can have his cake and eat it, too. He seems to 
think that he can neglect to certify as required under the Iran 
Nuclear Agreement Review Act and then kick the can to Congress 
and absolve himself from any leadership role on this critical 
issue and he will create great uncertainty about the U.S. 
position, this would be a grave mistake.
    America must live up to its commitments. There is plenty of 
room to negotiate on the details that fall outside of the 
JCPOA.
    This is precisely what the JCPOA was intended to do--to 
give us room to focus on the very real and very serious issues 
of Iranian malfeasance. This is exactly what we must do.
    The U.S. must keep its commitment to our allies, maintain 
our compliance with the Iran nuclear deal, and most 
importantly, as our chairman so aptly put it, we must enforce 
the hell out of it.
    That is Congress' role and it's up to ensure that we and 
our allies make clear to Iran that while we maintain 
enforcement of the JCPOA, we will hold them to task for their 
bad behavior elsewhere.
    And if they violate the terms of the JCPOA we must do 
everything we can to reimpose sanctions and hold Iran 
accountable. And I sincerely hope that we never get to that 
point.
    But if we do, I know that I speak for many of my colleagues 
when I say we will be the first in line to hold a hard line and 
we impose sanctions.
    But for President Trump to pull out of the deal simply 
because he doesn't like it, because he campaigned against it, 
or because it will benefit him politically is the height of 
irresponsibility.
    I thank the chairman for bringing up legislation now and 
previously that will hold Iran accountable for its behavior and 
I urge the administration to utilize the tools we are giving 
them to enforce sanctions against Iranian officials in 
businesses that violate international law.
    I think it's important to note that as of now the 
administration has yet to impose any new sanctions based on the 
authorities we gave them this summer in H.R. 3364.
    This is inexcusable. I thank you again, Mr. Chairman and 
Ranking Member, for your leadership and yield back the balance 
of my time.
    Chairman Royce. Thank you.
    Mr. Brian Mast of Florida.
    Mr. Mast. Thank you, Chairman. I will keep my remarks 
brief.
    My thoughts on the JCPOA and the Iran deal are simple and 
it's that it places about as much deterrence on Iran as putting 
a millionaire on house arrest while cutting them a check for 
billions of dollars at the same time.
    The fact is that Iran has done their absolute best to kill 
American service members in Iraq and Afghanistan. They are 
colonizing their way across the Middle East through their 
proxies, and discounting the fact that an ICBM is not the only 
way to deliver a nuclear payload, the reality is it can be 
dropped off of the belly of an aircraft, delivered by a 
submarine, shipped in a container, or placed on the back end of 
a truck.
    If we allow Iran the ability to deliver any payload to our 
shores by an ICBM, then this is an allowance that has occurred 
out of nothing more than fear and trepidation and weakness.
    These are things that Americans have never been and should 
never be defined by, and we should not start that today.
    Thank you, Chairman.
    Chairman Royce. Thank you, Mr. Mast.
    Any other members? Ms. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman, and our ranking 
member. Thank you for these bipartisan bills, which I support 
both of them.
    I say today is a tale of two countries. Taiwan is a great 
friend, a great trading partner, very culturally enriched and, 
incidentally, just elected its first woman President, which I 
congratulate them for.
    Iran, on the other hand, is not a friend. They are the 
number-one state sponsor of terrorism and I am very pleased to 
also support this ballistic missile bill.
    With all that said, I am going to try to restrain myself 
because my colleagues have been very, I think, polite--maybe 
use the word dangerous, irresponsible.
    I want to say that, in my opinion, that the failure to 
certify, at this point in time, that Iran is meeting its 
obligations under the JCPOA is a manufactured crisis by the 
White House.
    It is based upon fake news and it is an action that would 
be opposed by our allies who went along with the agreement and 
reportedly opposed by the President's own national security 
team.
    Like others up here, originally I opposed the Iran 
agreement for a number of reasons. I won't get into it today.
    That was then. Now is now, because we have already released 
over $100 billion worth of assets. All reports and agreed upon 
by our international partners is that Iran has been complying 
with the agreement.
    So, to me, it would be totally insane, really, to leave 
this agreement now. There are issues, I know, we all are 
concerned about and we, obviously, need to continue to enforce 
the agreement.
    We need to try to stop Iran's terrorist activities but this 
is not the way to do it--by decertifying the agreement or the 
compliance with the agreement.
    You know, the President made a lot of campaign promises 
that some of us disagreed with and, to me, a lot of his actions 
have been destructive--destructive against women, destructive 
against the environment, destructive against immigrants.
    But, to me, this is a new level of potential destruction 
because we are talking about our very existence. And now, to 
me, using nuclear war as fulfilling a campaign promise.
    So I hope, although I don't expect, that the President is 
going to back down from his campaign promise. But I do hope and 
expect that my colleagues on both sides of the aisle are going 
to show some restraint and reasonableness because there is too 
much at stake.
    And with that, Mr. Chair, I yield back.
    Chairman Royce. Thank you, Congresswoman.
    We go to Tom Garrett of Virginia.
    Mr. Garrett. Mr. Chairman, the rhetoric here is disturbing.
    I mean, I think I just heard someone suggest that if the 
Iranians were aggressive with nuclear weapons it was the 
responsibility of President Trump--the destruction that might 
follow.
    There is--I mean, that's Vandenberg who said politics 
should stop at the water's edge. I'd imagine he'd roll over in 
his proverbial grave.
    A couple things have been said. Failure to certify ``won't 
show the consistency of resolve to move forward.''
    No, I think it would show greater resolve to deter Iran, 
who has been very clear in their rhetoric, from not only 
producing nuclear weapons but also, and quite importantly, 
delivery mechanisms.
    In 1994, President Clinton stood before the nation to 
trumpet the North Korean nuclear deal, which was followed with 
billions and billions of dollars in aid and assets transferred 
to North Korea, and President Clinton essentially declared that 
there was an end to the nuclear threat from North Korea as a 
result of that wonderful agreement.
    Fast forward 23 years and here we sit. Google it.
    And so another one of my colleagues and friends suggested 
that if we don't do this that we are kicking the can--or the 
President would decertify that he'll be kicking the can to 
Congress.
    I would offer that the only can kicking going on here is of 
a nation that won't take the mullahs at their word. I pointed 
out yesterday that this is a regime that is burned the effigy 
of every single United States President since Jimmy Carter and, 
indeed, during the finalization of the framework for the JCPOA 
depicted a lynching of our first African-American President. 
Google it.
    And so they demonstrated repeatedly through act and word a 
desire to eradicate this nation, the United Kingdom, the 
Israelis, amongst others, from existence.
    We have history as a teacher where we plied the North 
Koreans with billions of dollars and the President of the 
United States declared the nuclear threat in the region to be 
gone.
    Fast forward to the current events of today. Now we plied 
the Iranians with the freeing of billions of dollars of assets 
and literally palettes of cash money, and we are told that the 
JCPOA is somehow sacrosanct and beyond reproach.
    Let me point out, probably for at least the tenth time in 
this committee, that the U.N. Security Council Resolution 1929 
from 2010, prior to the JCPOA, articulated that Iran shall not 
undertake activities to develop ballistic missiles capable of 
delivering a nuclear payload. Shall not.
    The JCPOA, this document that we would think was somehow 
the be all, end all that would secure our future forever and if 
this administration questions the policies of the last 
administration might lead to the greatest destruction--that 
hyperbole needs to stop because it is dangerous, candidly, to 
how we treat each other as Americans--it is somehow sacrosanct 
that JCPOA is worded such as Iran is called upon not to 
undertake ballistic missile testing.
    Again, shall not undertake 2010 U.N. Security Council, 
which means the Chinese and the Russians and the world agreed 
to it--is called upon not to undertake JCPOA 2015, drafted 
while they are burning our President in effigy and depicting 
him being hung, and there is a hue and cry that somehow 
pointing out flaws in this document, admitting that there might 
have been mistakes is wrong.
    Mr. Sullivan, yesterday, who might have been national 
security advisor, had the result of the last elections been 
different, said diplomacy requires compromise.
    I wonder if he was quoting Neville Chamberlain circa 1938. 
Because the Treaty of Versailles called on the Nazis not to 
develop an army greater than 100,000 soldiers, and several 
million soldiers and millions of dead innocent people later we 
learned that sometimes parties who enter treaties don't honor 
them.
    Winston Churchill said appeasement means feeding the 
crocodile and hoping he'll eat you last. I would hearken back 
to the statement that we might be kicking the can to Congress 
by pointing out flaws in JCPOA to suggest that the only can-
kicking going on now is kicking the can of a nuclear threat to 
our children down the road, just like was done by the Clinton 
administration in the 1990s when they declared an end to the 
threat from that region.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Tom.
    We go to Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman.
    Chairman Royce, Ranking Member Engel, thank you for 
introducing H.R. 1968.
    I am a proud co-sponsor of this legislation and a proponent 
of doing everything in our power to curb and put an end to 
Iran's malign behavior.
    The Iran Ballistic Missile and International Sanctions 
Enhancement Act does just that. It would impose sanctions on 
those who support Iran's ballistic missile program and transfer 
weapons to and from Iran.
    Iran is a bad actor in a volatile region and its agents 
continue to sow instability. That is why I offered an amendment 
to require a report containing information on any credible 
information regarding violations of the travel restrictions on 
sanctioned Iranian individuals per U.N. Security Council 
Resolution 2231 and any exemptions that have been approved by 
the Security Council.
    There are troubling reports that Iran's commander of the 
IRGC Quds Force, General Qasem Soleimani, has traveled to 
Russia in violation of UNSCR 2231.
    These travel restrictions were put in place for good reason 
and we deserve to know whether in fact violations have 
occurred.
    I would like to thank the chairman for including my 
amendment in the en bloc package. I would also like to note 
that while I oppose the JCPOA, now that it is in place, I 
believe we have to aggressively and rigorously enforce it.
    But as we enforce it, it is critically vital to acknowledge 
that the JCPOA, like any agreement, has inherent risks and that 
this deal in particular has serious shortcomings and gaps, 
including but not limited to the sunset provisions.
    The urgent responsibility of our Government, in conjunction 
with our partners and our allies, is to develop the 
comprehensive strategies and commit the necessary resources to 
work to close the gaps and reduce the risks.
    I believe we must clearly and fully articulate, as a matter 
of national policy, that the United States will never allow 
Iran to have a nuclear weapon and that we will aggressively 
work to confront Iran's malign activities in the region and 
around the world.
    I applaud this committee for its work to reduce Iran's 
malign activities and prevent Iran from ever acquiring a 
nuclear weapon.
    I yield back.
    Chairman Royce. Thank you, Mr. Schneider.
    Any other members seeking recognition?
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    This is my first year in Congress. Had I been here when 
this agreement would have been reached I probably would have 
looked at it with a great deal of speculation and concern. I 
felt perhaps it was not as strong as it should have been.
    But it is what it is, and today we see how over 402 site 
visits and 25 snap inspections were conducted in the year--in 
the 12 months of 2016, almost doubling from 212. We are just 
slightly over 200 visits--inspections were conducted on 213. 
Also over 200--on 214 over 350 as well as 215 and, as I said in 
2016, 412 inspections were conducted.
    All leading to what conclusion? And that is that they have 
been in compliance. Yesterday we heard from General Wald, who 
said that he felt almost 99 percent sure that they were 
cheating on the agreement, unsubstantiated allegation that I 
think is irresponsible at the very least.
    And so all important players in this endeavor, particularly 
the inspectors, are saying that they are in compliance of the 
JCPOA.
    And so whereas the agreement perhaps was not strong enough 
to include other areas of concern for America, Iran's missile 
program and other important factors that must be addressed, the 
experts have told us time and time again not only in the past 
administration but in this administration that they have been 
in compliance.
    So the agreement also came about as a result of coalition 
building with other important allies that we have across the 
world, and we have a certain responsibility toward those allies 
to ensure that they don't feel in the future when we need them 
again--let's say, for example, with North Korea--that they will 
be left out in the cold. After they reach an agreement they 
sacrifice or they were--they were flexible in conceding certain 
thing that may have been dear and near to them.
    So I think that we should continue to push forward to 
ensure that we hold Iran's feet to the fire--that some of these 
issues that were left out of the agreement should be dealt with 
by the same international community and the same coalition that 
we helped lead.
    So we cannot advocate our leadership role in that 
coalition. It is important that America continues to be the 
leader of the world.
    So we must continue to strengthen that agreement and 
discuss the particular issues that are very concerning to all 
of us in the future.
    I join our ranking member, Eliot Engel, in supporting the 
concept that we got to strengthen this. But at this point, it 
will be political malpractice, if you may, if we opt out.
    We will feel the concern and scorn, in many cases, of our 
allies, and I think we will put the world in peril.
    Chairman Royce. Thank you, Mr. Espaillat.
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it, and the 
measures considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported as amended. Staff is directed to 
make any technical and conforming changes, and the chair is 
authorized to seek House consideration under suspension of the 
rules.
    Yes, Mr. Engel.
    Mr. Engel. Yes, thank you.
    Just two quick things. I first want to say, I know we all 
want to wish Mr. Connolly a speedy recovery. He had an accident 
and he is being wheelchaired around in a wheelchair and we wish 
him a speedy recovery.
    And the second important thing is happy birthday, Mr. 
Chairman.
    Chairman Royce. Well, thank you, Mr. Engel. Appreciate 
that. Well, thank you.
    On that high note, that concludes our business for today. 
And so I want to thank all of the members of this committee and 
you as well, Mr. Engel, for your contributions and assistance 
with this markup.
    The committee is adjourned.
    [Whereupon, at 10:37 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              
                    <all>
</pre></body></html>
